No. 20-138

 

 

IN THE
Supreme Court of the United States

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ETAL.,

Petitioners,
Vv.
SIERRA CLUB, ET AL.,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF FOR AMICUS CURIAE THE UNITED
STATES HOUSE OF REPRESENTATIVES
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,229 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 19, 2021.

Hag

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
